                    National Aeronautics and
                    Space Administration

                    Office of the Inspector General
                    Washington, D.C. 20546-0001




Reply to Attn of:   W                                                                              July 31, 2003



                    TO:            A/Administrator

                    FROM:          W/Inspector General

                    SUBJECT:       Intergovernmental Personnel Act Agreements
                                   Assignment Number A-03-005-00


                    This memorandum presents the results of an Office of Inspector General (OIG) audit
                    addressing concerns that Intergovernmental Personnel Act (IPA) employees received non-
                    peer reviewed grants or other benefits after completing assignments at NASA. We concluded
                    that the Agency did not give preferential grants or contracts or otherwise extend special
                    benefits to IPA agreement employees in connection with the conclusion of assignments at
                    NASA. We found that grants received by IPA employees during fiscal years 2000 through
                    2002 had been peer reviewed and awarded based on merit. We did not identify any other
                    benefits that were extended to IPA employees.

                    During FY 2000 - 2002, NASA had a total of 175 IPA assignees within the Offices of Space
                    Flight, Aerospace Technology, Space Science, Biological and Physical Research, and Earth
                    Science and the 10 NASA installations. As of March 31, 2003, 61 of the 175 IPA assignees
                    were still on assignment at NASA, 105 had completed their assignments and received no
                    further funding, and 9 had completed their assignments and received grants. The nine
                    individuals who received grants after their IPA assignments were contacted to discuss their
                    roles and responsibilities while at NASA. The nine grants were subject to peer review. We
                    determined that the nine IPA assignees did not receive preferential grants or contracts or
                    otherwise receive special benefits by virtue of completing an IPA assignment at NASA.

                    This audit was performed as a result of a referral that an IPA assignee within the Office of
                    Earth Science appeared to direct that funds, for which he had oversight responsibility, be set
                    aside for a future grant for himself. The IPA assignee submitted a grant proposal to the
                    Associate Administrator for the Office of Earth Science and expected to receive a grant
                    award after his IPA term was completed. Upon the advice of NASA’s Office of the General
                    Counsel, NASA terminated its internal review of the assignee’s grant because the employee
                    had improperly submitted the grant proposal. The OIG presented the results of our
                                                                                            2
investigation to the Department of Justice, Office of Public Integrity, for a prosecutive
determination. The Department of Justice declined to prosecute.


[original signed by]

Robert W. Cobb

cc:
AE/Chief Engineer
AS/Chief Scientist
F/Assistant Administrator for Human Resources and Education
G/General Counsel
M/Associate Administrator for Space Flight
R/Associate Administrator for Aerospace Technology
S/Associate Administrator for Space Science
U/Associate Administrator for Biological and Physical Research
Y/Associate Administrator for Earth Science
JM/Director, Management Assessment Division
